In the Supreme Court of the United States
October Term, 2020

JESSIE ANTHONY PARKER, Petitioner,
v.
United States of America

PETITION FOR WRIT OF CERTIORARI
TO THE
UNITED STATES COURT OF APPEALS OF THE ELEVENTH CIRCUIT

CERTIFICATE OF SERVICE

The undersigned member of the Bar of this Court certifies that pursuant to
Rule 29.3, Supreme Court Rules he served the within Motion for Leave to Proceed
In Forma Pauperis and Petition for Writ of Certiorari on Counsel for the United
States, and for other parties required to be served, by first-class mail, postage
prepaid, addressed as follows:
The Honorable Jeffrey B. Wall
Acting Solicitor General of the United States
U.S. Department of Justice, Room 5616
950 Pennsylvania Ave. NW
Washington, D.C. 20530-0001
and depositing same at the main United States Post Office Mobile, Alabama on
November 25, 2020. Counsel further certifies that all parties required to be served
have been served.

DEN, III
Madden &
Attorney for Petitioner
465 Dauphin Street
Mobile, Alabama 36602
(251) 432-0380

RECEWED
DEC - 2 2020
MFFICE OF THE CLERK
SUPREME COURT, U.S.

